                     March 27, 2001

                     KENNETH C. WEAVER
                     CHIEF POSTAL INSPECTOR

                     JON M. STEELE
                     VICE PRESIDENT, NORTHEAST AREA OPERATIONS

                     SUBJECT:      Use of Postal Police Officers on the Central
                                   Artery/Tunnel Construction Project
                                   (Report Number OV-MA-01-001)

                     This management advisory report presents the results of
                     our review of the use of postal police officers to support the
                     Massachusetts Highway Department's Central
                     Artery/Tunnel construction project in Boston, Massachusetts
                     (Project Number 00JR007OV000). We also determined
                     whether the Postal Service appropriately and timely billed
                     the highway department for police services.

Results in Brief 	   The review revealed that Postal Service and Inspection
                     Service officials acted within the scope of their authority
                     when performing services for the Central Artery/Tunnel
                     construction project, but that they needed to improve the
                     billing process for postal police services. Specifically,
                     Postal Service officials did not bill the Massachusetts
                     Highway Department using current rates or bill for indirect
                     expenses associated with services provided. In addition,
                     controls were not in place to ensure that the highway
                     department was billed for total labor hours worked. Finally,
                     once bills were issued, Postal Service officials did not
                     ensure that all payments were received from the highway
                     department. As a result, the Postal Service was not
                     compensated for $26,203 in services provided.

                     We suggested that Postal Service and Inspection Service
                     officials bill the Massachusetts Highway Department at the
                     correct rates, recover underbilled labor hours, adjust labor
                     rates to include indirect expenses, ensure time cards are
Use of Postal Police Officers on the Central                                         OV-MA-01-001
 Artery/Tunnel Construction Project


                                correctly accumulated, and use the automated payroll
                                system as the source for billable hours. We also suggested
                                that the Inspection Service reconcile actual costs incurred to
                                amounts reimbursed by the Massachusetts Highway
                                Department. Management generally agreed with our
                                suggestions, and corrective actions planned and taken
                                adequately address the issues identified in this report.
                                Management’s comments, in their entirety, are included in
                                Appendix D of this report.

Background                      The Central Artery/Tunnel project is a major construction
                                project managed by the Massachusetts Highway
                                Department. The project, which is estimated to be
                                completed in 2004, will:

                                    •	   Create an eight- to ten-lane underground expressway
                                         directly beneath the existing Central Artery that runs
                                         through the center of downtown.

                                    •	   Extend the Massachusetts Turnpike (I-90) from south
                                         of downtown Boston through a tunnel beneath South
                                         Boston and Boston Harbor to Logan Airport.

                                The tunnel extension of the Massachusetts Turnpike affects
                                the Boston Processing and Distribution Center because it
                                requires the dismantling of a bridge used by Postal Service
                                trucks and other vehicles on the property’s south end. As a
                                result of the construction, traffic was rerouted onto a new
                                road that was built west of the demolished bridge. The
                                construction project further affects the processing and
                                distribution center because construction workers and
                                equipment have access to Postal Service property for tunnel
                                construction.

                                The Massachusetts Highway Department contracted with
                                the Postal Service in November 1994 to obtain security,
                                safety, and other related services for the Boston Processing
                                and Distribution Center. This contract directed that postal
                                police officers would provide traffic and pedestrian control,
                                security and safety support, and associated services in
                                support of the project. The Postal Service billed the
                                Massachusetts Highway Department an hourly rate for
                                postal police officer services.




                                                    2
Use of Postal Police Officers on the Central                                         OV-MA-01-001
 Artery/Tunnel Construction Project




Objective, Scope, and           Our overall objective was to determine the Postal Service’s
Methodology                     authority to use postal police officer services for the
                                Massachusetts Highway Department's Central
                                Artery/Tunnel construction project. We also evaluated the
                                appropriateness of rates billed to the highway department
                                for services provided.

                                To satisfy our objectives, we interviewed various Postal
                                Service and Inspection Service officials from the Postal
                                Service Facilities office, Northeast Division, and Boston
                                Processing and Distribution Center. We also reviewed
                                numerous documents related to the Postal Service’s and
                                Inspection Service’s involvement in the project, including the
                                Postal Service and Massachusetts Highway Department
                                contract, the Postal Service and Fraternal Order of Police
                                labor agreement, timecards, daily scheduling sheets,
                                overtime lists, overtime reports, invoices, and other related
                                documents. We reviewed documentation covering the
                                period January 1997 through March 2000.

                                We compared timecards and associated documentation to
                                invoices for four randomly selected months to determine if
                                the Postal Service appropriately billed the Massachusetts
                                Highway Department for services provided by postal police
                                officers. These months included January 1997, November
                                1997, April 1998, and May 1999.

                                We conducted our review from April 2000 through
                                March 2001 in accordance with the President’s Council on
                                Integrity and Efficiency, Quality Standards for Inspections.
                                We discussed our conclusions and observations with
                                appropriate management officials and included their
                                comments, where appropriate.

Authority To Use                Our review revealed that Postal Service officials acted
Postal Police Officers          within the scope of their authority when using postal police
                                officers to perform services for the Central Artery/Tunnel
                                construction project. Titles 39 and 40 of the U.S. Code
                                state that postal police officers are responsible for ensuring
                                the protection of Postal Service persons and property.
                                Pursuant to Title 39, the Postal Service is authorized to act
                                in a business-like manner to include contracting to protect
                                postal operations and recovering related costs. Postal
                                police officers supporting the Central Artery/Tunnel



                                                  3
Use of Postal Police Officers on the Central                                          OV-MA-01-001
 Artery/Tunnel Construction Project



                                construction project conducted traffic and pedestrian control
                                only as it affected Postal Service property. As a result,
                                postal police officers acted within the scope of their authority
                                when performing services for the construction project.

Appropriateness of              Postal Service officials did not bill the Massachusetts
Rates Billed                    Highway Department for rate increases specified in the
                                amendment to the labor agreement or for indirect expenses
                                associated with services provided. In addition, Postal
                                Service and Inspection Service officials did not ensure that
                                all labor costs for postal police officers supporting the
                                construction project were recovered. As a result, the
                                Inspection Service was not compensated for $26,203 in
                                services provided for the Central Artery/Tunnel construction
                                project.

Rate Increases                  Postal Service officials did not correctly bill the
                                Massachusetts Highway Department for services provided
                                by postal police officers. Specifically, Postal Service
                                officials did not bill the Massachusetts Highway Department
                                for rate increases specified in the amendment to the labor
                                agreement because controls did not exist to ensure that rate
                                increases were instituted as required.

                                The October 1994 Postal Service labor agreement with the
                                Fraternal Order of Police identifies general labor rates for
                                postal police officers. The labor agreement identified a rate
                                to be paid for hours worked from 6:00 a.m. to 6:00 p.m. and
                                a separate rate, including a shift differential, for hours
                                worked from 6:00 p.m. to 6:00 a.m. The Postal Service and
                                Fraternal Order of Police amended the labor agreement in
                                July 1996 to provide rate increases in May 1997 and May
                                1998 for postal police officers based on changes to the
                                Employment Cost Index.

                                Postal Service officials billed the Massachusetts Highway
                                Department using October 1994 rates, but did not adjust the
                                rates for the May 1997 increases specified in the
                                amendment to the labor agreement until May 1998. In
                                addition, Postal Service officials did not bill the
                                Massachusetts Highway Department for the May 1998 day
                                rate increase, and did not fully bill the Massachusetts
                                Highway Department for the May 1998 night rate increase.
                                Postal Service officials did not bill the Massachusetts



                                                  4
Use of Postal Police Officers on the Central                                         OV-MA-01-001
 Artery/Tunnel Construction Project


                                Highway Department for established rate increases
                                because controls did not exist to ensure that rate increases
                                were instituted as required. As a result, the Postal Service
                                underbilled the Massachusetts Highway Department
                                $25,735 for the period May 1997 through March 2000 for
                                services provided by postal police officers. See Appendices
                                A and B for detailed calculations related to the underbillings.

Indirect Expenses 	             The Postal Service also did not bill the Massachusetts
                                Highway Department for all indirect expenses incurred,
                                including supervisory support and workers compensation
                                costs, in connection with postal police officer services. The
                                Postal Service contract with the Massachusetts Highway
                                Department permits the Postal Service to bill for indirect
                                expenses in connection with the project. While some
                                indirect expenses were included as part of the initial hourly
                                rates charged for postal police officers, these rates did not
                                cover all indirect costs incurred.

                                For example, the hourly rates do not cover supervisory
                                costs associated with postal police services. Shift
                                supervisors, or sergeants, devoted about three hours per
                                day supervising postal police officers supporting the
                                construction project. This work included scheduling postal
                                police officers for the project and obtaining last minute
                                replacements for those previously scheduled to work.
                                Additionally, hourly rates do not cover workers’
                                compensation costs associated with employee injuries and
                                claims. Billing for all indirect expenses, including
                                supervision and workers compensation costs incurred,
                                would help ensure that the Postal Service is appropriately
                                compensated for services provided.

Labor Hours Billed 	            The Postal Service and Inspection Service did not ensure
                                that all labor hours charged by postal police officers
                                supporting the construction project were billed. Our review
                                of timecards and invoices disclosed errors that resulted in
                                an underbilling of $1,326 for the night shift and an
                                overbilling of $858 for the day shift for the four months
                                sampled. Consequently, the Postal Service underbilled the
                                Massachusetts Highway Department by $468. While this
                                sample does not permit us to statistically estimate an
                                error rate, it does suggest that problems existed in the
                                billing process. See Appendix C for a detailed explanation
                                of the net underbilling.




                                                  5
Use of Postal Police Officers on the Central                                        OV-MA-01-001
 Artery/Tunnel Construction Project



                                The errors occurred because the Inspection Service did not
                                accumulate and provide all project-related timecards to the
                                Postal Service project coordinator. Also, there were no
                                controls to ensure that the coordinator accurately
                                accumulated the hours billed from employee timecards.
                                Specifically, the project coordinator prepared handwritten
                                spreadsheets listing hours by timecard to accumulate total
                                hours worked on the project. This process resulted in an
                                increased risk of calculation and transfer errors.
                                Management controls, such as the use of the payroll system
                                to capture hours paid to postal police officers for services
                                provided in support of the construction project, did not exist
                                to ensure all hours worked were appropriately billed. In
                                addition, Inspection Service officials did not compare the
                                amounts reimbursed to actual costs to ensure that they
                                were appropriately reimbursed for all services provided.
                                Establishing management controls will help ensure that the
                                Postal Service appropriately bills the Massachusetts
                                Highway Department for services provided by postal police
                                officers and that the Inspection Service is ultimately
                                reimbursed for costs incurred.

Suggestions 	                   We suggested the vice president, Northeast Area
                                Operations, and the chief postal inspector:

                                1. Bill the Massachusetts Highway Department at the
                                   current rates for future services and recover $25,734 in
                                   underbilled rates and $468 in unbilled labor hours.

Management’s                    Management agreed with our suggestion and stated that
Comments                        they have billed the Massachusetts Highway Department at
                                the current rates since September 2000. Management
                                further stated that they will demand reimbursement for the
                                $25,734 in underbilled rates and $468 in unbilled labor
                                hours by March 10, 2001.

Evaluation of                   Management’s actions are responsive to our suggestion.

Management’s

Comments 





                                                  6
Use of Postal Police Officers on the Central                                        OV-MA-01-001
 Artery/Tunnel Construction Project




Suggestion                      2. Adjust labor rates to include all indirect expenses
                                   associated with postal police services.

Management’s                    Management agreed with our suggestion and stated that,
Comments                        beginning in September 2000, they adjusted rates billed to
                                include indirect expenses associated with postal police
                                services. Management also stated that the Northeast Area
                                Finance office agreed with the current rates established by
                                the Postal Inspection Service.

Evaluation of                   Management’s actions are responsive to our suggestion.

Management’s

Comments 


Suggestion                      3. Ensure all time cards are accumulated and provided to
                                   the Postal Service project coordinator and the
                                   automated payroll system be used as the source for
                                   billable labor hours.

Management’s                    Management agreed with our suggestion to accumulate and
Comments                        provide time cards to the Postal Service project coordinator,
                                but disagreed with using the automated payroll system as
                                the source for billable hours. Management stated that using
                                the automated payroll system, as the source of billable
                                hours is not feasible because the system cannot produce
                                reports that will isolate project hours. Management also
                                stated that the project coordinator will recalculate labor
                                hours prior to billing, and the reduction of manual time cards
                                will be discussed with the Massachusetts Highway
                                Department.

Evaluation of                   Management’s actions are responsive to our suggestion.
Management’s                    Although management disagreed with using the automated
Comments                        payroll system as the source for billable hours, actions
                                taken and planned by management, including totaling labor
                                hours on time cards before they are provided to the project
                                coordinator, should significantly increase the accuracy of
                                billable hour calculations.




                                                  7
Use of Postal Police Officers on the Central                                         OV-MA-01-001
 Artery/Tunnel Construction Project


Suggestion                      We suggest that the chief postal inspector:

                                4. Reconcile actual costs incurred to amounts reimbursed.

Management’s                    Management disagreed with our suggestion to reconcile
Comments                        actual costs incurred to amounts reimbursed. Management
                                stated that a reconciliation would not be cost effective due
                                to recent controls instituted and the immaterial value of the
                                underbillings identified in the report. However, to ensure
                                proper billings, management now requires each Postal
                                Service police officer to complete a separate timecard each
                                day for work performed on the Central Artery/Tunnel
                                Project.

Evaluation of                   Although management disagreed with our suggestion,
Management’s                    actions taken and planned, including controls established to
Comments                        ensure current rates are appropriately billed for postal police
                                services, are responsive to the recommendation.
                                Specifically, these controls should help ensure that the
                                Inspection Service is appropriately reimbursed for future
                                services provided.

                                We appreciate the cooperation and courtesies provided by
                                your staff during the review. If you have any questions,
                                please contact Cathleen Berrick, director, Oversight, at
                                (703) 248-4543, or me at (703) 248-2300.



                                Ronald K. Stith
                                Assistant Inspector General
                                 for Oversight and Business Evaluations

                                cc: 	James K. Belz
                                     John R. Gunnels




                                                  8
Use of Postal Police Officers on the Central                                                    OV-MA-01-001
 Artery/Tunnel Construction Project


                 APPENDIX A. UNDERBILLINGS FOR DAY SHIFT
                                       Recalculated
                   Hourly Rate            Rate                       Difference of
           Grade 6   (Salary           (Hourly Rate        Hourly    Recalculated
           Step 19 Divided by          Multiplied by        Rate    Rate and Billed    Hours    Over/(Under)
Month/Year Salary 2080 hr/yr)              1.5)            Billed         Rate         Billed      Billing

 May - 97     38,651      18.58            27.87           27.87         0.00                        (00.00)
   Jun        39,525      19.00            28.50           27.87        (0.63)         848.0        (534.24)
   Jul        39,525      19.00            28.50           27.87        (0.63)         514.5        (324.13)
   Aug        39,525      19.00            28.50           27.87        (0.63)         473.0        (297.99)
   Sep        39,525      19.00            28.50           27.87        (0.63)         541.0        (340.83)
   Oct        39,525      19.00            28.50           27.87        (0.63)         607.0        (382.41)
   Nov        39,525      19.00            28.50           27.87        (0.63)         440.0        (277.20)
   Dec        39,525      19.00            28.50           27.87        (0.63)          20.5         (12.92)
 Jan - 98     39,525      19.00            28.50           27.87        (0.63)         786.0        (495.18)
   Feb        39,525      19.00            28.50           27.87        (0.63)         591.5        (372.64)
   Mar        39,525      19.00            28.50           27.87        (0.63)         782.4        (492.91)
   Apr        39,525      19.00            28.50           27.87        (0.63)         865.5        (545.26)
   May        39,525      19.00            28.50           27.87        (0.63)         780.3        (491.59)
   Jun        40,618      19.53            29.30           28.50        (0.80)         838.5        (670.80)
   Jul        40,618      19.53            29.30           28.50        (0.80)         823.4        (658.72)
   Aug        40,618      19.53            29.30           28.50        (0.80)         805.5        (644.40)
   Sep        40,618      19.53            29.30           28.50        (0.80)         820.0        (656.00)
   Oct        40,618      19.53            29.30           28.50        (0.80)         846.0        (676.80)
   Nov        40,618      19.53            29.30           28.50        (0.80)         807.5        (646.00)
   Dec        40,618      19.53            29.30           28.50        (0.80)         759.0        (607.20)
 Jan - 99     40,618      19.53            29.30           28.50        (0.80)         769.0        (615.20)
   Feb        40,618      19.53            29.30           28.50        (0.80)         743.5        (594.80)
   Mar        40,618      19.53            29.30           28.50        (0.80)         871.0        (696.80)
   Apr        40,618      19.53            29.30           28.50        (0.80)         932.0        (745.60)
   May        40,618      19.53            29.30           28.50        (0.80)        1009.0        (807.20)
   Jun        40,618      19.53            29.30           28.50        (0.80)         944.0        (755.20)
   Jul        40,618      19.53            29.30           28.50        (0.80)         948.0        (758.40)
   Aug        40,618      19.53            29.30           28.50        (0.80)         948.5        (758.80)
   Sep        40,618      19.53            29.30           28.50        (0.80)         982.0        (785.60)
   Oct        40,618      19.53            29.30           28.50        (0.80)        1007.0        (805.60)
   Nov        40,618      19.53            29.30           28.50        (0.80)         988.5        (790.80)
   Dec        40,618      19.53            29.30           28.50        (0.80)         832.0        (665.60)
 Jan - 00     40,618      19.53            29.30           28.50        (0.80)         782.5        (626.00)
   Feb        40,618      19.53            29.30           28.50        (0.80)         904.0        (723.20)
   Mar        40,618      19.53            29.30           28.50        (0.80)         600.0        (480.00)

Total                                                                                           ($19,736.02)




                                                       9
Use of Postal Police Officers on the Central                                             OV-MA-01-001
 Artery/Tunnel Construction Project


               APPENDIX B. UNDERBILLINGS FOR NIGHT SHIFT

                         Hourly                    Night Shift
                          Rate     Recalculated     Premium                Difference of
           Grade 6      (Salary    Rate (Hourly    (Overtime     Hourly    Recalculated             Over/
Month/     Step 19     Divided by Rate Multiplied Rate Plus 10    Rate    Rate and Billed Hours    (Under)
 Year      Salary      2080 hr/yr)   by 1.5)        Percent)     Billed        Rate       Billed    Billing


 May –      38,651       18.58           27.87         29.73     29.73         0.00          Included in
  97                                                                                        June’s billing
  Jun       39,525       19.00           28.50         30.40     29.73        (0.67)       81.0      (54.27)
  Jul       39,525       19.00           28.50         30.40     29.73        (0.67)       42.5      (28.47)
  Aug       39,525       19.00           28.50         30.40     29.73        (0.67)       60.5      (40.53)
  Sep       39,525       19.00           28.50         30.40     29.73        (0.67)      109.0      (73.03)
  Oct       39,525       19.00           28.50         30.40     29.73        (0.67)      149.0      (99.83)
  Nov       39,525       19.00           28.50         30.40     29.73        (0.67)      178.0     (119.26)
  Dec       39,525       19.00           28.50         30.40     29.73        (0.67)       16.5      (11.06)
Jan - 98    39,525       19.00           28.50         30.40     29.73        (0.67)      496.0     (332.32)
  Feb       39,525       19.00           28.50         30.40     29.73        (0.67)      214.5     (143.72)
  Mar       39,525       19.00           28.50         30.40     29.73        (0.67)      496.0     (332.32)
  Apr       39,525       19.00           28.50         30.40     29.73        (0.67)      387.5     (259.62)
  May       39,525       19.00           28.50         30.40     29.73        (0.67)      488.4     (327.23)
  Jun       40,618       19.53           29.30         31.25     31.00        (0.25)      429.5     (107.38)
  Jul       40,618       19.53           29.30         31.25     31.00        (0.25)      590.0     (147.50)
  Aug       40,618       19.53           29.30         31.25     31.00        (0.25)      498.0     (124.50)
  Sep       40,618       19.53           29.30         31.25     31.00        (0.25)      614.0     (153.50)
  Oct       40,618       19.53           29.30         31.25     31.00        (0.25)      595.0     (148.75)
  Nov       40,618       19.53           29.30         31.25     31.00        (0.25)      532.5     (133.13)
  Dec       40,618       19.53           29.30         31.25     31.00        (0.25)      559.5     (139.88)
Jan - 99    40,618       19.53           29.30         31.25     31.00        (0.25)      561.0     (140.25)
  Feb       40,618       19.53           29.30         31.25     31.00        (0.25)      500.5     (125.13)
  Mar       40,618       19.53           29.30         31.25     31.00        (0.25)      664.5     (166.13)
  Apr       40,618       19.53           29.30         31.25     31.00        (0.25)     1039.5     (259.88)
  May       40,618       19.53           29.30         31.25     31.00        (0.25)     1023.5     (255.88)
  Jun       40,618       19.53           29.30         31.25     31.00        (0.25)      981.5     (245.38)
  Jul       40,618       19.53           29.30         31.25     31.00        (0.25)      978.0     (244.50)
  Aug       40,618       19.53           29.30         31.25     31.00        (0.25)     1000.0     (250.00)
  Sep       40,618       19.53           29.30         31.25     31.00        (0.25)      943.0     (235.75)
  Oct       40,618       19.53           29.30         31.25     31.00        (0.25)      989.0     (247.25)
  Nov       40,618       19.53           29.30         31.25     31.00        (0.25)      866.5     (216.63)
  Dec       40,618       19.53           29.30         31.25     31.00        (0.25)      859.5     (214.88)




                                                  10
Use of Postal Police Officers on the Central                                             OV-MA-01-001
 Artery/Tunnel Construction Project




                         Hourly                    Night Shift
                          Rate     Recalculated     Premium                Difference of
           Grade 6      (Salary    Rate (Hourly    (Overtime     Hourly    Recalculated               Over/
Month/     Step 19     Divided by Rate Multiplied Rate Plus 10    Rate    Rate and Billed Hours      (Under)
 Year      Salary      2080 hr/yr)   by 1.5)        Percent)     Billed        Rate       Billed      Billing

Jan - 00    40,618       19.53           29.30         31.25     31.00        (0.25)       782.0       (195.50)
  Feb       40,618       19.53           29.30         31.25     31.00        (0.25)       804.0       (201.00)
  Mar       40,618       19.53           29.30         31.25     31.00        (0.25)       900.0       (225.00)

   Total                                                                                            ($5,999.46)
              Add: Day Shift                                                                       (19,736.02)*

   Total Day and Night Shift                                                                       ($25,735.48)



                      * Underbilling for day shift obtained from Appendix A.




                                                  11
Use of Postal Police Officers on the Central                                           OV-MA-01-001
 Artery/Tunnel Construction Project


             APPENDIX C. NET UNDERBILLING FROM ERRORS IN
             ACCUMULATING HOURS WORKED FROM TIMECARDS


                                                               Difference of Total Hours
  Month        Total     Hourly                 Total Hours    Less Recalculated Hours Over/(Under)
  Worked       Hours      Rate      Wage Cost   Recalculated    Over/(Under) charged     Charged
    A           B          C         BxC=D           G                  B-G=H             HxC


 Day Shift

Jan - 97         52      $27.87     $1,449.24       53                 (1.00)*           ($27.87)
Nov - 97        440       27.87     12,262.80     414.1                 25.90             721.83
Apr - 98       865.5      27.87     24,121.49     850.91                14.59             406.62
May - 99       1009       28.50     28,756.50     1017.5                (8.50)           (242.25)

  Total - Day Shift                                                                      $858.33

Night Shift

Jan - 97        27.5     $29.73        817.58      27.5                 0.00                $0.00
Nov - 97       178        29.73      5,291.94     210.68              (32.68)             (971.58)
Apr - 98        387.5     29.73     11,520.38     401.5               (14.00)             (416.22)
May - 99      1023.5      31.00     31,728.50    1021.5                 2.00                62.00

 Total - Night Shift                                                                   ($1,325.80)

Net Underbilling                                                                        ($ 467.47)

* Difference was due to a footing error by the Central Artery/Tunnel coordinator




                                                   12
Use of Postal Police Officers on the Central            OV-MA-01-001
 Artery/Tunnel Construction Project


                    APPENDIX D. MANAGEMENT’S COMMENTS




                                               13
Use of Postal Police Officers on the Central        OV-MA-01-001
 Artery/Tunnel Construction Project




                                               14
